HHS/OIG-Audit--"Review of Outpatient Rehabilitation Services Provided by Americare Physical Therapy and Rehab Services for the Period January 1, 1997 Through December 31, 1997, (A-05-99-00062)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Outpatient Rehabilitation Services Provided by Americare Physical
Therapy and Rehab Services for the Period January 1, 1997 Through December 31,
1997," (A-05-99-00062)
December 6, 2000
Complete Text of Report is available in PDF format
(987 kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out that Americare Physical Therapy and Rehab Services
(Americare) claimed payment for outpatient rehabilitation services that did
not meet the Medicare criteria for reimbursement. Specifically, we identified
charges for outpatient rehabilitation services that were not reasonable and
medically necessary for the beneficiary's condition, or were inadequately documented.
Based on a statistical sample, we estimate that at least $190,399 was paid to
Americare for unallowable charges. We also identified additional unallowable
costs of $313,220 in unreasonable owner's compensation, contracted costs for
which there was not sufficient documentation, and other miscellaneous unallowable
expenses on Americare's 1997 Medicare cost report. Americare concurred with
our recommendation that it strengthen its procedures to ensure that claims for
services are reasonable, necessary, and properly documented and that nonreimbursable
costs are eliminated from its Medicare cost reports. We are also providing the
results of our audit to the fiscal intermediary so that it can make the appropriate
financial adjustments.